                                     t

                                         i
                                                                                                                 1

                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL'                                 1
                                                                                                                 1
                                                      OFFICE OF INVESTIGATIONS                                   I



                                             CLOSEOUT MEMORANDUM                                                 1
                                                                                                                 I
                                                                                                                 i
                                                                                                                 I


                                                                                                                 ,
         On March 12,2003, we received an anonymous hotline call making allegations against the
         Principal investigatori (P.I.) of several NSF Grants at a large midwest ~ n i v e r s i g .The caller
         alleged the P.I. required students to kickback some ofthe support money that they received to the
                                                                                                                 1
        ,department and also the P.I. submitted falsified photocopies of old recommendation letters with
         their proposals. The caller further alleged that three former colleagues had approached a Dean at           ,
         the university3 about the P.I.'s activities and all three were subsequently dismissed. The caller           I


         did not provide any information regarding the identities of these individuals.                              1
                                                                                                                     I
         Interviews were conducted and a request was issued to the University for various records relating
                                                                                                                     I
         to P.I.'s department and information regarding both current and former employees of the
         department. The requested records were received and subsequently reviewed. This review did                  1
                                                                                                                         I
         not identify any facts to support the allegations.
                                                                                                                         i
                                                                                                                         I

         Based on the anonymous nature of this complaint, the lack'of any information to support the
         allegations and the lack of any complainants or witnesses to provide any information to warrant
         further investigation, it is my conclusion that the allegations made cannot be substantiated and
         this investigation should be closed with no further action warranted.

         Accordingly, this case is closed.




1
NSF OIG Form 2 (1 1/02)
